9/9/2021

Visa Agreement Disclosure Statement - Stanford Federal Credit Union



Search …



Credit Cards

Visa® Application and Solicitation
Disclosure
Platinum Cash Back

Secured Visa

Stanford Alumni Rewards

Stanford Athletics® Fan Rewards

Interest Rate and Interest Charges

Annual Percentage Rate
(APR) for Purchases

Platinum Cash Back Visa
8.99% to 17.99%, when you open your account, based on your creditworthiness.
This APR will vary with the market based on the Prime Rate.
Secured Visa
17.99%
Stanford Alumni Rewards Visa/Stanford Athletics® Fan Rewards Visa
9.99% to 18.00%, when you open your account, based on your creditworthiness.
This APR will vary with the market based on the Prime Rate.

APR for Balance Transfers

Platinum Cash Back Visa
1.99% Introductory APR for six months from account opening.

After that, your APR will be 8.99% to 17.99%, based on your creditworthiness.
This APR will vary with the market based on the Prime Rate.
Secured Visa
17.99%
Stanford Alumni Rewards Visa/Stanford Athletics® Fan Rewards Visa
1.99% Introductory APR for six months from account opening.

After that, your APR will be 9.99% to 18.00%, based on your creditworthiness.
This APR will vary with the market based on the Prime Rate.

https://www.sfcu.org/personal/credit-cards/visa-agreement-disclosure-statement/

1/4

9/9/2021

Visa Agreement Disclosure Statement - Stanford Federal Credit Union

APR for Cash Advances

Platinum Cash Back Visa
8.99% to 17.99%, when you open your account, based on your creditworthiness.
This APR will vary with the market based on the Prime Rate.
Secured Visa
17.99%
Stanford Alumni Rewards Visa/Stanford Athletics® Fan Rewards Visa
9.99% to 18.00%, when you open your account, based on your creditworthiness.
This APR will vary with the market based on the Prime Rate.

How to Avoid Paying
Interest on Purchases

Your due date is at least 25 days after the close of each billing cycle. We do not
charge you interest on Purchases if you pay your entire balance by the due date
each month. We will begin charging interest on Cash Advances and Balance
Transfers on the transaction date. This excludes our Classic Secured Visa.

For Credit Card Tips from
the Consumer Financial
Protection Bureau

To learn more about factors to consider when applying for or using a credit card,
visit the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore

Fees
Account Description

Fee

Annual fees

None

Transaction Fees
Balance Transfer Fee

None

Cash Advance Fee

None

Foreign Transaction Fee

None

Penalty Fees
Late Payment Fee

Up to $7.00

Returned Convenience Check Fee

Up to $25.00

Return Payment Fee

Up to $20.00

https://www.sfcu.org/personal/credit-cards/visa-agreement-disclosure-statement/

2/4

9/9/2021

Visa Agreement Disclosure Statement - Stanford Federal Credit Union

How we will calculate your balance:
We use a method called “average daily balance (including new purchases).”

Promotional Period for Introductory APR – Stanford Alumni Rewards Visa/Stanford Athletics® Fan Rewards Visa/Platinum Cash
Back Visa:
The Introductory APR for balance transfers will apply to transactions posted to your account during the first 60 days following the opening of your account. Any
existing balances on Stanford Federal Credit Union loan or credit card accounts are not eligible for the Introductory APR for balance transfers.

Effective Date:
The information about the costs of the card described in this application is accurate as of: 9/18/2020
This information may have changed after that date. To find out what may have changed, contact the Credit Union at 888.723.7328.

For California Borrowers, the Secured Visa is a secured credit card. Credit extended under this credit card account is secured by various personal
property and money including, but not limited to: (a) any goods you purchase with this account, (b) any shares you specifically pledge as
collateral for this account on a separate Pledge of Shares, (c) all shares you have in any individual or joint account with the Credit Union
excluding shares in an Individual Retirement Account or in any other account that would lose special tax treatment under state or federal law,
and (d) collateral securing other loans you have with the Credit Union excluding dwellings. Notwithstanding the foregoing, you acknowledge
and agree that during any periods when you are a covered borrower under the Military Lending Act your credit card will be secured by any
specific Pledge of Shares you grant us but will not be secured by all shares you have in any individual or joint account with the Credit Union. For
clarity, you will not be deemed a covered borrower if: (i) you establish your credit card account when you are not a covered borrower; or (ii) you
cease to be a covered borrower.
Other Fees & Disclosures:
Late Payment Fee:
$7.00 or the amount of the required minimum payment, whichever is less, if you are five or more days late in making a payment.

Over-the-Credit Limit Fee:
$0.00.
Returned Payment Fee:
$20.00 or the amount of the required minimum payment, whichever is less.
Returned Convenience Check Fee:
$25.00 or the amount of the returned convenience check, whichever is less.
Document Copy Fee:
$12.00.
Rush Fee:
$45.00.

Company

Self-Service

Personal Banking

Open an Account

Business Banking

Apply for a Loan

Routing Number

Wealth Management

Apply for a Real Estate Loan

321177722

About Us

Tax Forms











https://www.sfcu.org/personal/credit-cards/visa-agreement-disclosure-statement/

3/4

9/9/2021

Visa Agreement Disclosure Statement - Stanford Federal Credit Union

Contact Us

Online & Mobile Banking

Careers

Wire Transfers
Wise

Resources

Visit a Branch

Deposit Rates



Loan Rates

 888.723.7328

ATM & Branch Locator

Mortgage Rates
Service Fees
Seminars and Events
Financial Calculators
Financial Education
Financial Tips

Some links in this site may direct you outside of the Stanford Federal Credit Union
website. Stanford FCU is not responsible for the content displayed on these other
websites. If you are using a screen reader and are having problems using this website,
please call 888.723.7328 for assistance.

Disclosures

Homeowner Hardship Assistance

Security

https://www.sfcu.org/personal/credit-cards/visa-agreement-disclosure-statement/

Privacy Policy

Federally Insured by NCUA | Equal Housing Lender | NMLS
#729643

© 2021 Stanford Federal Credit Union

4/4

